Case: 21-40104

Document: 00515884027

Page: 1

Date Filed: 06/02/2021

iHmteti States Court of Appeals!
for tl)e Jftftf) Circuit
No. 21-40104

A True Copy
Certified order issued Jun 02,2021

W. £cu*u.
Clerk, u!s. Court of Appeals, Fifth Circuit

In re: Jose Victor Hernandez-Cuellar
Movant.

Motion for an order authorizing
the United States District Court for the
Eastern District of Texas to consider
a successive 28 U.S.C. § 2255 motion

Before Higginbotham, Smith, and Engelhardt, Circuit Judges.
Per Curiam:
Jose Victor Hernandez-Cuellar, federal prisoner # 26608-078, was
charged with and convicted of sexual exploitation of children, and he was
sentenced to 247 months of imprisonment. He now moves this court for
authorization to file a second or successive motion pursuant to 28 U.S.C.
§2255. The district court dismissed his first §2255 motion without
prejudice for failure to prosecute.
Any § 2255 motion filed by Hernandez-Cuellar at this time would not
be successive within the meaning of § 2255(h) or 28 U.S.C. § 2244(b)(3)(A),
given that his first § 2255 motion was dismissed without prejudice prior to a
final adjudication of the merits of his claims. See In re Gasety, 116 F.3d 1051,
1052 (5th Cir. 1997).
Thus, Hernandez-Cuellar does not require

Od

Case: 21-40104

Document: 00515884027

Page: 2

Date Filed: 06/02/2021

No. 21-40104

authorization from this court to file a § 2255 motion in the district court. See
§ 2255(h); § 2244(b)(3)(A).
Accordingly, IT IS ORDERED that Hemandez-Cuellar’s motion
for authorization is DENIED as unnecessary.

Oe
2

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

July 08, 2021
#26608-078
Mr. Jose Victor Hernandez-Cuellar
FCI Texarkana
4001 Leopard Drive, P.O. Box 7000
Texarkana, TX 75505-0000
No. 20-40865

USA v. Hernandez-Cuellar
USDC No. 4:20-CV-134

Dear Mr. Hernandez-Cuellar,
We received your Motion for a Certificate of Appealability and
Brief in Support.
In light of the court's order of January 27,
2021 the appeal is closed, we are taking no action on this motion.

Sincerely,
LYLE W. CAYCE, Clerk

By: _______ ^
^_______
Monica R.Washington,Deputy Clerk
504-310-7705

cc:

Ms. Marisa J. Miller

* *

SEE

* * *

On JUNE 14, 2021., I, Hernandez Cuellar Jose Victor, mailed a "Motion for a
Certificate of Appealability (COA)" to the Appeals Court of the 5th Circuit.
In it Showing multiple Constitutional issues, due to the strength of my
reasons, the Appellate Court docketed the Motion into ANOTHER Appeal Case (2140051). I try to correct the issue and I send the COA again with a cover
letter point out the Court error, then the Appellate Court placed the COA into
ANOTHER Appeal Case Again (20-40865-this letter), then dismissed. It seems
like the Court are using "procedures" to avoid underlying Constitutional
claims. The Court have not address the Constitutional issues that I presented
which leaves ONLY the Supreme Court to satisfied my 1st Amendment Right of
redress of grievances.

0 f

Case 4:20-cv-00134-ALM-KPJ Document 9 Filed 07/20/20 Page 1 of 1 PagelD #: 18

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
JOSE HERNANDEZ-CUELLAR #26608-078 §
§
§
§
§

VS.
UNITED STATES OF AMERICA

CIVIL ACTION NO. 4:20cvl34
CRIMINAL ACTION NO. 4:16crl 11(1)

ORDER OF DISMISSAL
This civil action was referred to United States Magistrate Judge Kimberly C. Priest Johnson.
The Report and Recommendation ofthe Magistrate Judge, which contains proposed findings of fact
and recommendations for the disposition of such action, has been presented for consideration. No
objections were timely filed. The Court concludes that the findings and conclusions of the
<

Magistrate Judge are correct, and adopts the same as the findings and conclusions of the Court.
It is therefore ORDERED the motion to vacate, set aside, or correct sentence is
DISMISSED without prejudice. It is further ORDERED ail motions by either party not previously
ruled on are hereby DENIED.
SIGNED this 20th day of July, 2020.

(jS)Asin>
AMOS L. MAZZANT
UNITED STATES DISTRICT JUDGE

Appendix
0

CasesteBO2(Mfi!aea-ALBfeKGttieifaDeQ&iavi2B66SilecP3(0e7)l21 DSt§(Ftta5f:2!ffa^<aDai; 31

iHmteti States! Court of appeals!
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-40865
United States

of

January 27, 2021
Lyle W. Cayce
Clerk

America,

Plaintiff—Appellee,
versus
Jose Victor Hernandez-Cuellar
Defendant—Appellant.

Appeal from the United States District Court
for the Eastern District of Texas
No. 4:20-CV-134
Before Higginbotham, Smith, and Engelhardt, Circuit Judges.
Per Curiam:
This court must examine the basis of its jurisdiction, on its own
motion if necessary. Hill v. City ofSeven Points, 230 F.3d 167,169 (5th Cir.
2000). Under 28 U.S.C. § 2107(b) and Federal Rule of Appellate Procedure
4(a)(1)(B), the notice of appeal in a civil action in which the United States is
a party must be filed within sixty days of entry of the judgment or order from
which appeal is taken. A motion brought under 28 U.S.C. § 2255 is a civil
action to which the sixty-day appeal period applies. United States v. de los
Reyes, 842 F.2d 755,757 (5th Cir. 1988).

Ob

Cas§^S021MffiQ^-ALDleRTOe©DeQ6l^2266BilecRa8e:7221

No. 20-40865
In this § 2255 proceeding, the final judgment was entered on July 20,
2020, so the final day for filing a timely notice of appeal was September 18,
2020. The defendant’s pro se notice of appeal is dated December 16, 2020,
and it was filed on December 21, 2020. Because the notice of appeal is so
dated, it could not have been deposited in the prison’s mail system within the
prescribed time. See Fed. R. App. P. 4(c)(1) (stating that a prisoner’spro
se notice of appeal is timely filed if deposited in the institution1 s internal mail
system on or before the last day for filing). When set by statute, the time limit
for filing a notice of appeal in a civil case is jurisdictional. Hamer v. Neighbor­
hood Hous. Servs. of Chi, 138 S. Ct. 13,17 (2017); Bowles v. Russell, 551 U.S.
205, 214 (2007).
The lack of a timely notice mandates dismissal of the appeal. United
States v. Garcia-Machado, 845 F.2d 492, 493 (5th Cir. 1988). Accordingly,
the appeal is DISMISSED for want of jurisdiction. All pending motions
are DENIED.

2

Oc

32

Additional material
from this filing is
available in the
Clerk's Office.

